No.

21-5500
IN THE
SUPREME COURT OF THE UNITED STATES

Prn

Rh

.Inhn

Rirharrl

.Smith —

J

(Your Name)

|l E3 Bj jM'SH

aIlkuill I

VS.

Bobby Lumpkin

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TC

Ilnit.Rrl

Bt.Rt.RR

f.mirt. nf flppoals

for

the

Fifth

.FILED.
AU8 17 2021

Circuit

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

John

Richard Smith

(Your Name)
C.T.Terrell Unit
(Address)
Rosharon,

TX.

775B3

(City, State, Zip Code)
N/fl

(Phone Number)

r;

1300 FM 655

;

QUESTION(S) PRESENTED
Whether the 5th Circuit Court of Appeal errored in denying
petitioner's request for a (C.O.A.) claiming Petitioner
failed to state a Constitutional violation?
Where Petitioner claimed he has been prejudiced by counsel's
failure to investigate accused only viable defense available
and failure to call available eye witness, which violated his
Sixth Ammendment right which is protected under the United
States Constitution.

Whether the 5th Circuit of Appeals errored in denying Petitioner's
request for a (C.D.A.) claiming Petitioner failed to State a
Constitutional violation?
Where Petitioner claimed he was denied Due Ptocess by the
Prosecution withholding of Exculpatory Evidence which violated
his Fifth and Fourteenth Ammendment rights which is protected under
the Constitution of the United States .

LIST OF PARTIES

Ck] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Smith v State of Texas No. 1395401 District Court Judgement
entered on December 3rd, 2015 .
Smith v State of Texas No. 01-15-01055-OR The Court of Appeal
Judgement entered on March 3rd, 2017.
Smith v Davis No. kJR-88110 Court of Criminal Appeals
Judgement centered on August 22nd, 2018.
Smith v Davis No. H-18-3578 In the United States District Court.
Judgement entered on September 24th, 2019.
Smith v Lumpkin No. 4:18-CU-3578 The United States Court of Appeals
Judgement entered on December 14th, 2020.
- Smith v Lumpkin No. 4:18-CW-3578 United States Court of Appeals
Judgement r e n_t_ej_e.d_o.n .lYLax-C-h—2.2n.d...—2-021

•*

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

6

INDEX TO APPENDICES

APPENDIX A

APPENDIX B
APPENDIX C

- Decision of the United States Court of Appeal Fifth
Circuit
Decision of the United States District Court

” Order of the United States Court of Appeals Denying
Rehearing

APPENDIX D

Affidavit from Trial Counsel on remand

APPENDIX E

- Trial Record of Counsel's closing argument

APPENDIX F

- Trial Record Testimony of Dr. Sara Doyla

APPENDIX G
APPENDIX H

Statement of the Case (Continued)
- Reasons for Granting Petition (Continued)

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

AVILA V QUARTERMAN - 499 F.Supp 713
BRADY V MARYLAND

373 US 83,

Moore V/ Johnson

194 F3d 586

Mowbray

560 F3d 299

83 S.Ct. 1194

5

5

104 S.CT 2C52

3

BANKS V DRETKE - 540 US at 690, 124 S.CT.

1272

STATUTES AND RULES
5th & 14th Ammendment Due Process
6th Ammendment Compulsory Process & Effective Assistance of

OTHER

3

- 943 SItl2d 466, 11 7 S.CT. 2513

.. STRICKLAND V WASHINGTON

Counsel

5

3

4

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[X] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

ft

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

V

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was Dr n 1k, 7n?n
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
3-22-2021
Appeals on the following date:
and a copy of the
c
order denying rehearing appears at Appendix
[X] An extension of time to file the petition for a writ of certiorari was granted
6-1 9-2021
to and including
(date) on B-1R-2021
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

A

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Ammendment:
STRICKLAND V. WASHINGTON-1 045 .CT 2052
The Court agreed that the Sixth Ammendment imposes on counsel a duty
to investigate because reasonable effective assistance must be based
on professional decision and informed legal choices can be made only
after investigation of options. Counsel's conduct so undermined the
proper functioning of the adversarial process that the trial cannot
be relied on as having produce a just result.
Fifth Ammendment:
Banks V. Dretke- 540 US at 690, 124 S.CT. 1272
The Supreme Court has consistently held that prosecution's duty to
disclose evidence material to either guilt or punishment applies even
when there has been no reguest by the accused.
Fourteenth Ammendment:
BRADY V. MARYLAND- 373 US B3, B3 S.CT. 1194
Suppression by prosecution of evidence favorable to an accused upon
request violates due process where evidence is material either to
guilt or to punishment, irrespective of good faith or bad faith
of prosecution.

3

STATEMENT OF THE CASE
On July 21, 2013 the Petitioner was charged with murder of C. Cousin.
Petitioner was appointed counsel, Petitioner explained to Counsel that
he did not murder Cousin, but Cousin's death was an accident, that he
had given Cousin a gun but when he noticed that Cousin was high on P.C.P.
Petitioner tried to get gun back. Petitioner and Cousin wrestled over
the gun and it went off killing Cousin. Petitioner's trial began in
Dec. 2015, Petitioner felt that appointed counsel was not trying

to show

he was innocent. So Petitioner filed a Pro Se motion for discovery in an
attempt to gain exculpatory evidence. That being that Cousin had gun shot
residue on the right hand and that Cousin's fingerprints were on the gun.
At Petitioner's trial, Petitioner took the standtestified that Cousin
pulled the trigger as they wrestled for the gun. In counsel's closing
argumentsto the jury he stated that he or the jury known the result of the
residue kit performed on Cousin's hands and the results of the fingerprints
taken from the gun. This would have proven if my client was telling the
truth or not, because my client testified that he did not kill Cousin.
Dr. Sara Doyla testified that she had done a residue kit on Cousin's hands
and sent the results to the prosecutor's office for anyone investigating
the case. While Dr. Williams testified about the residue kit done on
Petitioner's hands (The results were: No particles confirmed as having a
composition characteristic with the GSR residue were detected on Petitio-r
ner's right hand or left - Volume 4 Page 36 (17-23) of the record).
□n Dec. 3, 2015 the jury found Petitioner guilty and on Dec. 4, 2015
the judge sentenced the Petitioner to 58 years. On Sep. 24, 2C19, In The
United States District Court, Petitioner's 11.07 was denied. The United
States Court of Appeals remanded':the case back to the District Court to
e-.g-: APPENDIX G
4

*

i

a

REASONS FOR GRANTING THE PETITION

The Court of Appeals has ruled contrary to the standard set forth
in Brady v Maryland, and in Strickland v Washington, in that the
Petitioner has shown that the deficient performance by appointed
counsel, prejudiced his defense. Where counsel failed to investi­
gate exculpatory evidence that would have shown that the victim
in fact was the one who pulled the trigger. Dr. Sara Doyli tes­
tified that she sent the results of the residue kit done on
Cousin's hand to the prosecutor for anyone investigating the
case. Counsel failed to investigate the accused's only viable defense
available. In Mowbray 117 S.Ct. 2513 the Court ruled, Counsel for,'.mur­
der defendant was ineffective, for failing to produce expert medical
testimony that physical evidence was consistent with victim committing
suicide, or to interview prosecution medical witness. Petitioner has
also shown that the withholding'of Exculpatory Evidence by the prose­
cutor violated his right to Due Process. Like in Avila v Quarterman
499 F.Supp. 713, 560 F3D 299. Petitioner has shown that he was denied
his constitutional right under Supreme Court's holding in Brady v
Maryland 373 US B3, B3 S.Ct. 1194 when the prosecutor withheld from
defense counsel the personal knowledge and expert opinions of prosecution expert Dr. Harry Wilson

which could have been used to impeach

the prosecution also like in Avila v Quaterman the Petitioner should
be entitled relief where the State Habeas Court employed the wrong le=
gal standard to review and evaluate Petitioner's Brady claim. Second,
the State Habeas Court factual findings are not only rebutted by the
clear and convincing evidence currently before this Court but—those
findings had no evidentiary basis whatsoever in the record before the
e.g. APPENDIX H
5

*

«

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

AjL? £/*£?/?//

77

Date:

6

